<html>
<title> - FARMING IN THE 21ST CENTURY: THE IMPACTS OF AGRICULTURE TECHNOLOGY IN RURAL AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 FARMING IN THE 21ST CENTURY: THE IMPACTS OF AGRICULTURE TECHNOLOGY IN 
                             RURAL AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON INNOVATION AND WORKFORCE DEVELOPMENT

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                            JANUARY 9, 2020

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               

            Small Business Committee Document Number 116-066
             Available via the GPO Website: www.govinfo.gov             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-824                     WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
           
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
            Justin Pelletier, Majority Deputy Staff Director
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jason Crow..................................................     1
Hon. Troy Balderson..............................................     3

                               WITNESSES

Mr. Kevin M. France, President and CEO, SWIIM System, Ltd., 
  Denver, CO.....................................................     7
Dr. David Potere, Head of GeoInnovation, Indigo Agriculture, 
  Boston, MA.....................................................     9
Mr. Roberto Meza, Co-Founder and Farmer, Emerald Gardens, 
  Bennett, CO, testifying on behalf of the Rocky Mountain Farmers 
  Union..........................................................    10
Dr. Douglas Jackson-Smith, Professor and Assistant Director, 
  School of Environment and Natural Resources, The Ohio State 
  University, Wooster, OH........................................    12

                                APPENDIX

Prepared Statements:
    Mr. Kevin M. France, President and CEO, SWIIM System, Ltd., 
      Denver, CO.................................................    30
    Dr. David Potere, Head of GeoInnovation, Indigo Agriculture, 
      Boston, MA.................................................    35
    Mr. Roberto Meza, Co-Founder and Farmer, Emerald Gardens, 
      Bennett, CO, testifying on behalf of the Rocky Mountain 
      Farmers Union..............................................    40
    Dr. Douglas Jackson-Smith, Professor and Assistant Director, 
      School of Environment and Natural Resources, The Ohio State 
      University, Wooster, OH....................................    45
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Statement of Paul Schlagel, Sugarbeet farmer, Longmont, CO, 
      Chairman, Biotech and Research Committee, American 
      Sugarbeet Growers Association, Washington, DC..............   129

 
 FARMING IN THE 21ST CENTURY: THE IMPACTS OF AGRICULTURE TECHNOLOGY IN 
                             RURAL AMERICA

                              ----------                              


                       THURSDAY, JANUARY 9, 2020

                  House of Representatives,
               Committee on Small Business,
          Subcommittee on Innovation and Workforce 
                                       Development,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Jason Crow 
[chairman of the Subcommittee] presiding.
    Present: Representatives Crow, Finkenauer, Kim, Davids, 
Veasey, Houlahan, Balderson, Chabot, Hern, Burchett, and Joyce.
    Also Present: Representative Panetta.
    Chairman CROW. Good morning. The Committee will come to 
order.
    We thank everyone for joining us this morning to our first 
Small Business Committee hearing of 2020. And I want to 
especially thank the witnesses for taking the time to travel 
from across the country and take time away from their 
businesses in some instances to have this important discussion.
    As is the case with these hearings, there will be members 
coming and going. There are overlapping hearings on other 
Committees, so you will see some folks come and go throughout 
and ask questions, so we just ask for your patience in bearing 
with that as well.
    Farming and agriculture are at the heart of strong 
economies around the country. Investing in agriculture is 
crucial to ensure that our communities can thrive. Coming from 
Colorado, I understand the importance that farming and 
agriculture have on our state's way of life and economic well-
being.
    Nearly half of Colorado's 66 million acres are dedicated to 
over 30,000 farms and ranches, many of which are small, locally 
owned operations. Colorado is a leading producer of cattle, 
corn, wheat, and dairy, but Colorado's small farms are also 
raising everything from bison to ostriches and growing 
sunflowers, grapes, and mushrooms to name a few.
    In the 21st century, technology and innovation are changing 
everyday life, reshaping how consumers shop, and how business 
is conducted. Modern farming is no different. Through 
advancements in robotics, sensors, artificial intelligence, GPS 
technology, and digital platforms, agriculture is undergoing a 
revolution and transitioning from the industrial age to the 
digital age. These innovations, commonly known as agriculture 
technology, or ag-tech, provide an opportunity to help farmers 
increase yields and profitability while reducing waste and 
environmental impact.
    Today's hearing will provide members with an opportunity to 
hear from innovators, farmers, and researchers about how ag-
tech is helping farmers modernize their businesses and how 
entrepreneurship and innovation in ag-tech is changing our food 
and farming systems.
    The increased use of ag-tech has the potential to address 
challenges our country and the world will face over the next 
century. Globally, the world's population is on track to exceed 
9 billion in the next 30 years. According to the United 
Nations, this means our agricultural production will need to 
increase by 70 percent to meet the growing demand for food, 
fiber, and biofuels.
    Meeting this global demand for food will be even more 
challenging in the face of climate change that is already 
impacting our food systems, water, and land. Changing 
temperatures reduce yields and increase pest pressures. Changes 
in participation patterns increasingly cause crop failure and 
production decline.
    As a former Army Ranger, I have also seen how these 
threats, including scarce water resources and poor food 
security in other countries can have a profound impact on our 
own national security, readiness, and resiliency.
    But the full potential of ag-tech to meet global food 
demands mitigate the negative impacts of climate change and 
create jobs in our rural communities will not be fully realized 
unless we fully support our farmers and innovators and the 
research that supports them.
    Ag-tech can spur innovation and growth in rural parts of 
the country, but like many other sectors of the economy, 
agriculture is struggling to find and retain a skilled and 
stable workforce. To address this, I worked with my colleagues 
on both sides of the aisle to pass the Farm Workforce 
Modernization Act which will help create a reliable workforce 
for American agriculture. This legislation will help provide 
certainty for guest workers and for American farmers and 
ranchers, an important step in solving the labor challenge 
facing American farmers and ranchers.
    There should also be robust funding of agriculture, 
research, and development at the USDA to support farmers in 
rural communities. I am proud that Colorado is a hub of ag-tech 
and innovation. Growing tech centers in the Denver and Boulder 
areas, funding opportunities through CoBank in my district, and 
a pipeline of talent from outstanding universities like 
Colorado State University and the University of Colorado 
systems have helped make Colorado the second largest ag-tech 
ecosystem in the country. As that pipeline develops the high-
tech skills in food science, environmental engineering and 
precision agriculture, these specialists will lead the ag-tech 
industry forward.
    Finally, it is crucial to mention the need for greater 
deployment of high-speed Internet in our rural communities. 
Outside of its importance in healthcare, education, and legal 
services, connectivity is the backbone of ag-tech. Broadband 
makes it possible for farmers to aggregate and analyze data in 
real-time while tracking commodity markets and operating 
digital technologies. Small businesses and farms across 
Colorado suffer daily from lack of access to high-speed 
broadband services due in large part to lack of investment. 
Reliable, affordable high-speed broadband is a necessity and 
why Congress must work to coordinate Federal resources and make 
investments in infrastructure projects.
    Technology has become indispensable for all small 
businesses, and farmers and ranchers are no different. Small 
businesses play a vital role in providing products and services 
supporting America's digital farming revolution.
    I look forward to hearing from our expert witnesses today 
on how farming is being impacted by technology and how R&D is 
impacting small business growth and entrepreneurship so that 
the U.S. can once again be the world leader in agricultural 
research and innovation.
    And I would now like to yield to the Ranking Member, Mr. 
Balderson, for an opening statement.
    Mr. BALDERSON. Good morning, everyone, and thank you, Mr. 
Chairman, Chairman Crow. I appreciate it. Happy New Year. And I 
look forward to a great 2020. I anticipate a great 2020 with 
another year of bipartisan camaraderie and innovation on 
Workforce Development Subcommittee.
    Today's hearing will explore agricultural technology 
innovations that are modernizing our farms and revitalizing 
rural America. Having spent time working on a family farm 
myself, I understand the impact farmers have on their community 
and our Nation.
    Agricultural technology, or ag-tech, is a broad term 
describing a diverse range of technologies, including 
bioscience, big data, analytics, automation and robotics, 
supply chain and logistics, and alternative business models 
such as hydroponics and meat alternatives. On farms, these 
technologies can increase productivity, reduce waste, and boost 
profits. On a larger scale, ag-tech entrepreneurship activities 
boosting rural revitalizing efforts by attracting startups, 
jobs, and investment dollars to agricultural regions. With the 
diversity of technologies involved, ag-tech attracts 
entrepreneurs and investors from various industries and 
geographies.
    As we observe the astounding growth and impact of ag-tech 
ventures, we cannot lose focus on the primary stakeholders, our 
farmers. With uncertain markets and narrowing profit margins, 
farmers may be hesitant to take on additional risk that comes 
with new technologies. For example, an investment in precision 
agricultural systems include equipment purchases, installation 
charges, and precise precious time spent learning how to use 
and maintain these technologies. To be fully taken advantage 
of, the system must be compatible with preexisting machinery, 
Internet connectivity, and business model. To be worth farmers' 
investments, technologies must have a tangible impact on 
productivity and profit. As options rapidly increase, how do 
farmers determine what will work best for their specific 
business needs?
    I would like to thank our witnesses for being here today 
and to talk about these experiences from ag-technologies and 
what resources are available to minimize the risk and maximize 
the benefits of investment. Thank you for being here today to 
represent this promising industry.
    I yield back, Mr. Chairman.
    Chairman CROW. Thank you, Mr. Balderson. And I agree with 
you on looking forward to 2020. We had some exciting wins and 
collaborations in 2019 and I look forward to continuing that in 
the next year.
    The gentleman yields back.
    And if Committee members have an opening statement 
prepared, we would ask that they be submitted for the record.
    I would like to just take a minute to explain the timing 
rule. Each witness gets 5 minutes to testify and each member 
get 5 minutes for questioning. There is a lighting system in 
front of you to assist you. The green light will be on when you 
begin, and the yellow light will come on when you have 1 minute 
remaining. The red light will come on when you are out of time, 
and we ask that you stay within that timeframe to the best of 
your ability.
    I would now like to introduce our witnesses. But before 
doing so, I am going to ask unanimous consent to allow 
Congressman Jimmy Panetta, who serves on the House Agriculture 
Committee to join this Subcommittee hearing.
    Without objection, so ordered.
    Welcome, Mr. Panetta.
    Mr. PANETTA. Thank you.
    Chairman CROW. Thank you for joining us today.
    And I will actually yield to you to introduce our first 
witness.
    Mr. PANETTA. Thank you, Mr. Chairman. I appreciate this 
opportunity to be here to speak about a very, very important 
issue. And thank you, Ranking Member Balderson. I appreciate 
both of your opening statements and agree with absolutely 
everything that both of you had to say. So thank you.
    It is an absolute honor to be here. It is actually quite 
far away from where I come, not just in the Cannon Building but 
in California. I come from the Central Coast of California. And 
it is otherwise known as ``the Salad Bowl of the World.'' Trust 
me, my fellow members on the Ag Committee get sick and tired of 
me saying that and they have heard me say it over and over. And 
now you get to hear me say it. But I say it with a lot of proud 
because there on the Central Coast of California, you name it, 
we grow it. We have hundreds and hundreds of specialty crops. 
There is a reason why we are not only ``the Salad Bowl of the 
World,'' but we have ``the Garlic Capital of the World.'' We 
have ``the Artichoke Capital of the World.'' We have ``the 
Berry Bowl of the world.'' We have specialty crops.
    But as many of you know, specialty crops can be very 
difficult to harvest, especially crops take that human 
discernment when it comes to soft fruits and vegetables as to 
figuring out what is safe, what is ripe, what is ready to be 
picked, what is aesthetically pleasing to the consumer. Because 
as you know, most of the time those products, once they are 
picked, they go right into the cartons. Those cartons go right 
onto the shelves of the stores. And those cartons then go home 
with us and then those products go right into the mouths of our 
sons and daughters. And so it does take at this point a very 
skilled--you have to be very skilled in order to harvest this 
product.
    Now, for a long time we have relied on humans to do that, 
especially on the Central Coast of California. That is why 
Jason, I completely agree with you, the Farmworker 
Modernization Act was a very, very important bill that I am 
proud to say has not only passed in a bipartisan basis in the 
House; it must be passed in the Senate and signed into law.
    But in the meantime, the other avenue that we must go down 
is ag-tech, as you mentioned. But this type of technology for 
these types of crops, we are behind it. We are lagging. Now, do 
not get me wrong; I have been out in our fields there in 
Watsonville, and I have seen some pretty interesting things 
from some companies right over the hill from Silicon Valley, 
where I have seen machines take more pictures of a strawberry 
plant in one afternoon than all of the previous human history 
of taking photos of a strawberry plant. It is that type of 
technology that is needed. But more needs to be invested in 
this technology to do it.
    And I think is why it is so, so important that we are 
having this type of conversation here in Washington, D.C., so 
that those types of investments in the fields, not just on the 
Central Coast but throughout this country, can benefit from the 
investment that is needed when it comes to ag-tech.
    And so it is an absolute honor that I am here today with 
you, but also have the opportunity to introduce Mr. Kevin 
France. Kevin France is the chief executive officer of SWIIM 
Systems, a small business that provides on-farm agriculture 
water accounting. SWIIM has a satellite office in my district 
there on the Central Coast, and it partners with the Western 
Growers Association, which has one of its main offices in my 
district as well.
    Now, under Mr. France's leadership, SWIIM has been 
recognized as a Top 25 Ag-Tech Company by Forbes Magazine. Mr. 
France, I thank you for being here, for your preparation, for 
your time, and all of us look forward to hearing what you have 
to say in regard to the investment that is needed and what has 
been done and what needs to be done when it comes to ag-tech. 
Thank you.
    Thank you, Ranking Chairman, Ranking Member, Chairman, I 
yield back.
    Chairman CROW. Thank you for being here, Mr. France, and 
Jimmy, you might have a lot of agricultural capitals of the 
world but I do not think you can claim the mushroom capital of 
the world because that distinction belongs to Ms. Houlahan 
sitting next to you. So I just wanted to be clear for the 
record.
    Our second witness is Dr. David Potere. Dr. Potere is the 
head of GeoInnovation at Indigo Agriculture. He is a technology 
leader focused on building integrated applied science platforms 
using geospatial technology to tackle complex business 
challenges. For the past several years, he has focused on 
building a living map of the world's food supply. Using 
reliable maps, data, and metrics can help farmers grow crops 
that are more profitable and sustainable. Prior to joining 
Indigo, Dr. Potere was cofounder and CEO of Tellis Labs, which 
provided action agricultural intelligence across the food value 
chain using machine learning, remote sensing, and geospatial 
analysis. Dr. Potere has a Ph.D. in geodemography from 
Princeton University and served the country as a surface 
warfare officer in the U.S. Navy. Thank you for your service, 
Dr. Potere, to the country and for being here today.
    Our third witness is Mr. Roberto Meza, a beginner farmer 
and cofounder of Emerald Gardens located in Bennett, Colorado. 
While a grad student at MIT in the Art, Culture, and Technology 
program, Roberto was inspired by student projects addressing 
food production in urban landscapes. His career quickly 
transitioned from the arts to agriculture with a focus on food 
access. After a hiatus working on farms and observing problems 
in our food systems, Roberto moved to Colorado with a childhood 
friend and started their own farm in 2017. Emerald Gardens 
grows, harvests, and distributes microgreens to restaurants, 
grocery stores, food pantries, and smaller retailers in 
Colorado's metro areas. They operate sustainably using 
geothermal and passive solar energy. Roberto is also the Chair 
of Membership and Outreach for Mile-High Farmers, the local 
chapter of the National Young Farmers Coalition and the Rocky 
Mountain Farmers Union. He is also a board member of the High 
Plains Food Co-op and is developing a model for Last Mile 
Distribution to help food co-ops and local producers gain 
access to markets. Thank you for taking time away from your 
business to be here today, Mr. Meza, and it is always good to 
see a fellow Coloradan in Washington, D.C.
    I would now like to yield to our Ranking Member, Mr. 
Balderson, to introduce our final witness.
    Mr. BALDERSON. Thank you, Mr. Chairman. I do want to 
acknowledge the Ranking Member of the Small Business Committee 
has joined us also, Ranking Member Chabot. Mr. Chabot, thank 
you for being here this morning.
    I am sure a lot of you are looking and you see the witness 
list. Dr. Jackson-Smith and I have made an agreement. We are 
not going to do the O-h-i-o stuff. But we do want to 
acknowledge that though Ohio State is not in the National 
Championship, Joe Burrow is. That is where he got all his 
training, so Ohio State is still represented in the 
championship game coming up Monday evening. So I just want to 
make sure that everybody is well aware of that, and he lives 
from the southern portion of Ohio. So we are well represented.
    Mr. CHABOT. Will the gentleman yield?
    Mr. BALDERSON. Yes.
    Mr. CHABOT. You mentioned Mr. Burrow. He may soon be a 
Cincinnati Bengal, too, which I happen to represent. We shall 
see.
    Mr. BALDERSON. We shall see.
    Our next witness--sorry, Doctor--Dr. Douglas Jackson-Smith, 
professor and assistant director of Ohio State University 
School of Environment and National Resources. He is here today 
as a representative of the university's initiative for food and 
agricultural transformation. Before joining Ohio State in 2016, 
Dr. Jackson-Smith served 15 years as a faculty member of the 
Department of Sociology, Social Work, and Anthropology at Utah 
State University. He has a bachelor's and master's degree in 
rural sociology, a master's degree in agricultural economics, 
and a Ph.D. in sociology. Trained as a rural sociologist, his 
research explores the dynamics of technology and structural 
change in agricultural and natural resource systems. He has 
helped lead $25 million worth of interdisciplinary science 
grant funding from USDA, NSF, and DOE. Dr. Jackson-Smith, we 
thank you for your research in this field and appreciate you 
taking the time away from your work to be here with us today. 
Thank you.
    I yield back, Chairman.
    Chairman CROW. Thank you, Mr. Balderson.
    In all due respect to the Ranking Member, Mr. Balderson, 
Dr. Jackson-Smith received his academic training from 
University of Wisconsin. So, go Badgers. Not to be outdone. 
Thank you very much.
    Mr. France, you are now recognized for 5 minutes.

STATEMENTS OF KEVIN M. FRANCE, PRESIDENT AND CEO, SWIIM SYSTEM, 
     LTD.; DR. DAVID POTERE, HEAD OF GEOINNOVATION, INDIGO 
   AGRICULTURE; ROBERTO MEZA, CO-FOUNDER AND FARMER, EMERALD 
  GARDENS; DR. DOUGLAS JACKSON-SMITH, PROFESSOR AND ASSISTANT 
DIRECTOR, SCHOOL OF ENVIRONMENT AND NATURAL RESOURCES, THE OHIO 
                        STATE UNIVERSITY

                  STATEMENT OF KEVIN M. FRANCE

    Mr. FRANCE. Thank you, Mr. Chairman. Congressman, thank you 
very much, and other members of this Committee. I appreciate 
the opportunity to speak with you today on the impact of 
agricultural technology in rural America. And I appreciate this 
opportunity to share some of my experiences.
    My name is Kevin France, and I am Chief Executive Officer 
of SWIIM System. My graduate and undergraduate degrees are in 
business administration, and my professional experience 
includes developing technologies through public partnerships 
that can be integrated into the private sector.
    Prior to the ``Internet of Things'', also known as the IoT 
revolution, sensors were not generally connected to the 
Internet and as a result, data was gathered manually, normally 
by a grower, when time permitted in between growing. Now, 
sensors are being connected to the Internet and data is being 
made available in near-real-time. Growers need better access to 
this game-changing technology in order to sustain our 
agricultural economy in the face of ever-increasing water 
shortages.
    SWIIM is an on-farm agricultural water accountant, twice 
recognized as a top 25 ag-tech company by Forbes Magazine, and 
we maintain a distribution agreement with Western Growers 
Association, one of the largest agricultural trade 
organizations in the Nation. Our clients are made up of growers 
of all sizes and shapes. We provide complete water use 
reporting, including applied and consumed water resources on a 
real-time basis by field and by crop.
    Similar to the way your CPA provides a detailed statement 
of financial accounts--money in, money out, and from what 
source--we enable growers to quantify and protect their water 
allocations well into the future.
    Our initial research was originally funded by private 
investment and underpinned by state water conservation grants. 
The technology was then developed over a 5-year period through 
an agreement with the USDA, Colorado State, and Utah State 
Universities. Our first issued patent was actually co-developed 
with the help directly alongside the USDA.
    Depending on their location, a grower may have access to 
river water, access to groundwater. Some have access to both. 
Unlike other farming inputs, however, water is the only 
component to a farming operation that has no alternative 
source, and if not available, could put the farmer completely 
out of business.
    By way of example, take the Colorado River--a prime surface 
water source for seven western states is over-appropriated by 
as much as 40 percent, leaving some farmers without water to 
grow the crops on which our Nation severely depends upon. Years 
of drought exacerbates this situation.
    As another example, take California's recent passing of the 
Sustainable Groundwater Management Act to manage over-pumping 
of its aquifers. With these upcoming restrictions, at least 
500,000 acres of farmland in the Central Valley of California 
will be without water most likely, which means no crops will be 
grown on those acres.
    Our clients tell us they fear for their livelihoods and the 
legacy of their operations, many of which have been in their 
families for generations. Growers need access to updated 
technologies to fight the consequences of drought and lack of 
water availability that is widespread throughout the U.S.
    The equipment we most often see in the field fails to 
provide the accurate water accounting needed today. We see 
roughly about one in five flow meters in the field are 
producing data that is off by as much as 25 percent and old-
fashioned open canal measurements where they still use 
yardsticks to measure water levels being off by as much as 40 
percent.
    Consider what this means. Our experience shows us that many 
of the current funding sources available are geared toward 
research. These contributions are valuable, but the net sum 
result of many of these projects simply leads to more research 
without much private sector engagement, unfortunately. The 
USDA-NRCS has programs that are designed to help famers and 
irrigation districts implement technologies. They include EQIP 
and RCPP funding sources. These programs, although well-
intentioned, are tough to plan around, as funding cycles do not 
track with grower needs and the application process is 
difficult to complete. Funds for these programs are managed and 
distributed generally on a regional basis making larger, more 
scalable projects that can benefit multiple regions more 
challenging to implement. We have seen this first-hand.
    One promising example relates to a project that we are 
currently finalizing along the Colorado River in Arizona, with 
support from the Federal Government. The client is working with 
the Bureau of Indian Affairs and the Bureau of Reclamation 
(BuRec) to co-fund a SWIIM deployment in an area that will 
benefit significantly from this type of water use data. If this 
funding project could be expanded through a partnership with 
BIA and BuRec to multiple users along the Colorado River, then 
more meaningful scaling could be achieved.
    To provide paradigm-shifting technologies and to facilitate 
the embracing of these types of technologies on a wider scale, 
funding sources must be flexible, and allow for approval on a 
project-wide basis across different regions, opposed to a 
region-by region basis as it is currently done.
    Thank you for the opportunity to share this story with you 
today, and I look forward to answering your questions.
    Chairman CROW. Thank you, Mr. France, for that testimony. 
And I would be remiss if I did not recognize that you are 
bringing your family here as well and it is my understanding it 
is at least your youngest daughter's first time in Washington. 
So welcome to our Nation's capital to the France family as 
well.
    Mr. FRANCE. Youngest and oldest. Thank you, Mr. Chairman.
    Chairman CROW. Right. Thank you.
    Dr. Potere, you are now recognized for 5 minutes.

                   STATEMENT OF DAVID POTERE

    Mr. POTERE. Thank you, Chairman Crow, other members of the 
Subcommittee. Thank you for the opportunity to testify in 
today's hearing.
    You know, fundamentally, growing food has always been a 
venture of small businesses, and that is true here in the 
United States. Despite all that we hear about consolidation of 
farms, today in the U.S., no sector has a higher percentage of 
small business ventures than agriculture. And that is not only 
the farmers who are growing our food but the shippers and 
carriers that bring our food to market, the accountants and 
CPA, and agronomists and mechanics that help bring that crop 
out in the world. And, of course, small business is 
challenging. And no small business is more challenging than 
agriculture.
    I come to you today as a technologist. I build 
technologies. I am not a farmer but I have been serving farmers 
for the last 5 years, building out a better system of 
agricultural intelligence using satellite and weather 
technology that is the result of hundreds of millions of 
dollars of government investment over the last many decades. 
And I am now proud to be a member of Indigo Agriculture, Inc., 
which is a company whose mission is to use technology to help 
farmers sustainably feed the planet.
    There are many challenges that the farmers face today; we 
have seen 49 percent reduction in the profitability of farms 
since 2013. We are looking at a 400 percent increase in input 
costs for farmers over the last 40 years, most of that in the 
last 15. If you think about where that increase in input cost 
is going, it is not going to small businesses. Think about how 
challenging it is to market that grain out in the world. As an 
asset class, commodities futures is one of the most volatile 
asset classes on the planet, and farmers ever year have to 
figure out when and how to market their crop out into the 
world. It is hard to be small in the food system, and at 
Indigo, we believe that technology is a part of the solution to 
making farming a more valuable profession and by extension, 
making small business a more viable sector.
    The two aspects of our business that I want to share most 
with you today are around bringing that crop out into the world 
via Indigo Marketplace, and learning how to grow a new kind of 
crop. Learning how to become a carbon farmer. We think this is 
one of the most hopeful things that we have heard of when it 
comes to the climate change story. Bringing farmers into the 
solution. It is true that farming represents 25 percent of 
carbon emissions but at Indigo, we believe that farming can be 
a definitive part of the solution for climate change because of 
the potential for agricultural soils to absorb carbon. It is 
really an old technology. It is called regenerative farming, 
and it basically means planting cover crops and letting what we 
all learned in eighth grade science take over. When it comes to 
photosynthesis, plants are really good at turning atmospheric 
carbon dioxide into soil carbon. We should let them do that and 
let them do that year-round by helping farmers move to a system 
where they plant crops during the winter, cover crops, that 
actually make the soil healthier, make the food healthier for 
human consumption, and actually create resilience for those 
farmers to better resist the changes of climate change, which 
if unmitigated look like they could create a 20 percent 
headwind when it comes to agricultural production in the 
country.
    That carbon solution, it requires a marketplace, and Indigo 
Marketplace technology is designed to match buyers and sellers. 
And that is a real tough problem. I have sat at the farm gate 
with many, many farmers in my time at Indigo around harvest 
time trying to make that decision of where and when to sell 
their grain. They are not armed with the same technologies as 
the Big Ag companies that they are selling into. And we work to 
democratize the kind of market insights and intelligence that 
it takes to make smart, rational decisions at that key moment, 
including learning how to sell carbon.
    One of the things that we wanted to make sure to mention 
today as we speak with all of you is an opportunity to support 
farmers in that chance to sell carbon. The thing we would like 
to observe is that for a decade now, due to changes in the Tax 
Code, oil and gas companies have had the opportunity to 
sequester atmospheric carbon as part of enhanced extraction. 
And the question we have for the Committee is if it makes sense 
at $50 a ton for the government to subsidize oil and gas to put 
carbon dioxide back into the ground, would it not make sense to 
allow farmers to do the same thing and to allow farmers to do 
that at lower cost per ton and do that in every rural community 
in America and allow them to become a part of the same solution 
that we know is so urgent for the planet?
    So I will kind of leave you with that question. I look 
forward to answering your further questions.
    Chairman CROW. Thank you, Dr. Potere.
    Mr. Meza, you are recognized for 5 minutes.

                   STATEMENT OF ROBERTO MEZA

    Mr. MEZA. Chairman Crow, Ranking Member Balderson, and 
members of the Subcommittee, thank you for the opportunity to 
testify today.
    My name is Roberto Meza. I am a first-generation farmer and 
co-founder of Emerald Gardens, a farm located 15 miles east of 
Denver on 35 acres in Bennett, Colorado. My business partner 
and I operate a controlled environment, passive-solar 
greenhouse in which we cultivate herbs, edible flowers, and 
over 20 varieties of microgreens. Every week, we harvest more 
than 300 pounds of microgreens destined for restaurants, 
grocery stores, food pantries, public schools, farmers markets, 
and for direct delivery to consumers.
    I am a member of Rocky Mountain Farmers Union (RMFU), which 
represents approximately 20,000 family farmers, ranchers and 
rural members across Colorado, New Mexico and Wyoming. I am 
also the Chair of Membership and Outreach of Mile-High Farmers, 
a co-chapter of Rocky Mountain Farmers Union and the National 
Young Farmers Coalition (NYFC).
    My business partner and I are proud to be building our 
small farm with a focus on environmental stewardship, 
technology, innovation, and community engagement.
    Microgreens are the primary crop of our farm and our labor 
of love. They have low input needs, have a quick turnaround 
time, can be grown year-round, and have a high nutrient 
density. It is through growing and incorporating microgreens 
into my diet that I experienced healing and renewal when I was 
struggling with personal health issues. Furthermore, they 
exhibit beautiful colors, have distinct flavor profiles, which 
make them highly sought after by chefs in restaurants and 
discerning consumers.
    On our farm, we use innovative technologies that help us 
reduce our costs and be strong environmental stewards. Our 
greenhouse uses a passive-solar design that is both energy 
efficient, economically sensible, and environmentally friendly. 
It works by using clear polycarbonate material on the south 
side to let the light through, and insulated metal panels on 
the sides and the north wall to trap that heat. This allows us 
to charge our Ground to Air Heat Transfer System (GAHT), a 
design refined by Ceres Greenhouse Solutions, that is based on 
the principles of a climate battery. This allows us to channel 
that heat in the greenhouse through a series of tubes that run 
below the structure's foundation and allows us to reduce our 
reliance on auxiliary heating and cooling implements.
    We grow vertically to maximize the use of our 3,000 square 
foot and use supplementary LED lighting to be energy efficient 
and cost-effective. Over the next few weeks, we will be 
installing 40 solar panels to power the lights and the fans in 
the greenhouse.
    Also, as Coloradoans know very well, the state closely 
monitors water supply and use because of the arid climate. We 
use an automated recirculating water system to supply the roots 
only what they need while reducing evaporation.
    Many people are still unfamiliar with microgreens. Social 
media is a critical tool we use to raise awareness about their 
nutritional benefits, as well as the important role they play 
in local food systems. By posting videos that show our farm 
practices and the technology we use in our production systems, 
it builds trust, transparency, and a deeper connection for 
consumers and their food source.
    A major puzzle we have been working to solve is optimal 
distribution of our product. Emerald Gardens is a boot-strapped 
business, so unsurprising we have relied on some relatively low 
tech methods of distribution such as attending farmers markets. 
But we also have an online farm stand so customers can place 
orders from their smartphone.
    For broader distribution, we have partnered with an 
innovative local grocery delivery startup, Bondadosa. Bondadosa 
allows us to deliver to all of our wholesale and retail markets 
through a single weekly pick-up. We also looked to partner with 
Bondadosa to share data that helps us optimize their delivery 
routes. As technology advances, including agricultural 
technology, it is becoming increasingly important for today's 
farmers to have a college education. Indeed, it has become an 
asset on many farms as well as our own. A college education is 
out of reach financially for many and student loans are 
essential.
    Unfortunately, student loan debt is one of several key 
factors preventing young and beginning farmers from getting or 
staying involved in agriculture. As a first generation and 
beginning farmer with my own student loan debt, I believe a 
Federal student loan debt forgiveness program is essential.
    Looking ahead, we are excited by the opportunity to partner 
next year with a technology startup that will pilot new sensors 
in our facility. These sensors will generate data that will 
help us understand the microclimate in our greenhouse to 
increase the precision of our production methods. Support for 
technologies such as these, which can improve environmental and 
economic efficiencies are increasingly important within the 
context of our changing climate.
    I want to close by saying that innovation is borne of 
struggle. While we face a myriad of challenges as small farmers 
and small business owners, we remain committed to a mission of 
feeding our communities, improving our farm and food systems, 
and remaining careful stewards of Colorado's natural 
environment. Technologies, both high-tech and low-tech, as well 
as grit and determination, are helping us get there.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Chairman CROW. Thank you, Mr. Meza. And I know tomorrow is 
your distribution day. So I especially appreciate you flying 
out to do this today. It is always good to see you at the 
Stanley Marketplace.
    Mr. MEZA. Thank you.
    Chairman CROW. Dr. Jackson-Smith, you are now recognized 
for 5 minutes.

               STATEMENT OF DOUGLAS JACKSON-SMITH

    Mr. JACKSON-SMITH. Thank you. And I want to begin by 
thanking the Subcommittee for the opportunity to speak to this 
important issue. As your introduction pointed out, I am a 
professor of rural sociology and water security at the Ohio 
State University, and I have spent my career studying both the 
drivers and the implications of technological change for 
farmers, with a particular focus on small and mid-size farms in 
rural communities.
    My comments today also reflect the contributions of a 
colleague, Dr. Casey Hoy, who is the Kellogg Endowed Chair of 
Agri-Ecosystem Management and the director of the initiative 
for Food and Agricultural Transformation (InFACT) that I can 
speak more about later, at Ohio State.
    Many of the challenges faced by small businesses stem from 
structural disadvantages that they face when competing against 
large-scale specialized businesses that serve global commodity 
markets and benefit from economies of scale. With that said, 
there is reason for optimism for the future of small and 
medium-size farms, agribusinesses, and food companies. Changes 
in consumer preferences, expanding markets for food products 
that offer social, economic, environmental, and health 
benefits, supportive public policies, and--most importantly for 
today's hearing--a whole raft of cutting-edge technological 
innovations provide a foundation for reinvigorating small 
businesses in rural America.
    Specifically over the last 20 years, a rise in consumer 
interest and awareness of how their food is produced has 
contributed to the rapid growth of new markets, and in response 
we are witnessing the resurgence of diversified farm and food 
supply chains in the U.S. This certainly includes farmers who 
incorporate cover crops and diverse crop rotations, reliance 
more on agro-ecosystem processes instead of synthetic inputs, 
and those who produce niche or specialty products.
    It also includes small food supply chain businesses that 
are more nimble and better able to meet these emerging 
specialized needs of different types of customers. In our 
written testimony my colleague and I list many examples of 
innovations that could help support these diversified farm and 
food businesses, and for the sake of time I am just going to 
highlight a few in my oral comments.
    First, there are innovations that improve the performance 
of diversified farms which we see as a foundation for this 
frontier. The diversified farming systems of the 21st century 
are not your grandfather's farm but rather improvements in 
scientific knowledge have opened new windows into the dynamics 
of agro-ecosystems and how diversification can be leveraged to 
improve farming. Some promising areas for innovation include 
support for farmer innovation. There are literally tens of 
thousands of farmers currently working to diversify their crop 
and livestock systems, and these farmers represent a reservoir 
of practical knowledge that you should start with and be a 
foundation for future discovery and innovation.
    There are breeding and genetic engineering tools, both 
traditional and cutting-edge, that could be used to develop new 
crop and livestock varieties optimized for small scale and 
diversified production systems. And the use of sensors and 
precision farming data to help farmers use inputs more 
efficiently and adapt to conditions in real-time.
    A second cluster of innovations might improve linkages 
between diversified farms and these emerging markets, and that 
would include tools to track the performance of diversified 
farms, innovations like the environmental sensors and tracking 
systems the previous speakers spoke to. Third, improving 
traceability. New data information systems, in particular block 
chain technology, could be harnessed to track products 
throughout a food supply chain without placing burdens on 
producers, processors, and retailers. And increased 
opportunities for direct marketing. In the digital age, 
connecting with consumers requires access and a reliable 
presence on the Internet, and the comments made earlier about 
the importance of rural broadband Internet, I think go no 
further mention.
    Finally, there are innovations that expand opportunities 
for non-farm businesses throughout this diversified system that 
we see. These might include innovative farm machinery 
companies, food processing technologies designed specifically 
to support diversified production and small scale producers. It 
also includes food safety monitoring technology that could 
address potential threats to the food supply associated with a 
more distributed and diversified supply chain, including new 
sensors and automated sampling technologies that are less 
labor-intensive and more accurate than many current systems.
    So big picture. While technological innovation can help 
small and medium-sized businesses thrive in a more diversified 
farm and food system, we are not working in a vacuum. For 
decades, the dominant thrust of technological change in the 
U.S. farm and food sector has focused successfully on large-
scale specialized commodity production. I think without 
conscious public leadership in this space we are concerned that 
the future of technology may not generate the opportunities for 
small businesses and rural economic development that all of us 
desire. Fortunately, I think emerging markets, good public 
policy, and targeted investments in research and innovation and 
small business development can help energize the technologies 
we have talked about today and stimulate economic opportunities 
in areas where Federal leadership in stimulating research and 
innovation around diversified farm and food systems could have 
a significant impact.
    And I thank you for the opportunity to address the 
Committee, and I look forward to your questions.
    Chairman CROW. Thank you, Dr. Jackson-Smith.
    I have appreciated everything that all four of you have 
shared with us today.
    I will begin by recognizing myself for 5 minutes and start 
with Mr. Meza.
    Mr. Meza, you have done something that not a lot of people 
are able to successfully able to do, and that is from kind of 
no background and experience in this area to jump in and start 
a small farming operation and to be able to survive your first 
few years. That is a very challenging statistically thing to 
do, and I would love for you to just share with us for a minute 
what advice you would share with other young folks that are 
looking at entering into the profession and doing this and your 
lessons learned, very briefly.
    Mr. MEZA. Thank you, Mr. Crow.
    My experience has definitely been challenging as you 
mentioned. I think one of the reasons why we have been 
successful is our involvement in our community, in our farmers 
union, working with extension offices, and also identifying 
appropriate technology and crops that are sought after in our 
community.
    As you know, Denver is a blossoming culinary world but it 
also has an underdeveloped food system. So with those two 
factors in mind, we have targeted microgreens as a perfect crop 
to really address a lot of those factors. For us, it has been 
an opportunity to explore and research different models for how 
to create a niche for ourselves and how to create a viable 
business. With the support of our community and the solidarity 
with other farmers, it has allowed us to get to where we are 
today. I would say the backbone of our farm aside from 
technology is also the relationships and partnerships that we 
have established. So I would definitely advise beginning 
farmers to collaborate, especially with their local community.
    Chairman CROW. And I know the last time we had a roundtable 
together at the Rocky Mountain Farmers Union there was some 
discussion about what you mentioned on the burgeoning 
restaurant market. You know, we have added almost 50 percent 
population, almost 2 million more Coloradoans than the last 2 
decades, which has led to a boom in the restaurant industry. 
But one of the biggest challenges is getting fresh produce to 
those restaurants in a timely way without them sitting on the 
shelf and having the spoilage. And I know some folks in the 
union are experimenting with online platforms to do that where 
a restaurant can order something up in real-time and get it 
within hours. Have you had experience with that, and are those 
platforms you think valuable?
    Mr. MEZA. Definitely. These platforms allow us to have a 
really strong relationship and communication avenues with our 
markets and our buyers. Growing microgreens allow us to 
generate enough product every week to cover the immediate needs 
of chefs in restaurants. So we have been able to capitalize on 
the benefits of microgreens in order to satisfy the needs of 
our blossoming culinary enterprises.
    Chairman CROW. And is there a role in your view for this 
Committee in helping young folks with the startup costs or the 
barriers on those platforms? Because, I mean, one of the things 
I love about this is you cannot outsource fresh produce; right? 
I mean, it has to be grown locally and produced locally and 
sent to local restaurants. So I think it is at great 
opportunity for us. But what are those barriers that you think 
folks like us sitting up here could help reduce?
    Mr. MEZA. Absolutely. I think, you know, one of the 
challenges was accessing capital. When my business partner and 
I decided to start a farm in Colorado, we did not exactly know 
how to approach it. We did not know what products to grow, and 
we also wanted to be mindful of food waste. So for us it was an 
opportunity to research what the local menu is in our context. 
Microgreens became that crop that we focused on. And because of 
their ease of production and low input needs, we were able to 
bootstrap our operation in a very small, 150 square foot 
greenhouse that was adjacent to my initial property that I was 
renting in Colorado. And through that it allowed us to really 
connect with the markets that were emerging, especially through 
farmers markets.
    Now that we have scaled to our commercial phase, we have 
realized that much more infrastructure and input needs have 
been required by our business model to be viable. So access to 
capital has been quite a challenge but we are bootstrapping it 
as we go along. This allows us to really understand the scale 
that is needed to address a lot of these factors and make our 
business viable.
    Like I had mentioned before, student loans have been a 
factor in our ability to address the infrastructure needs of 
our business but we are optimistic and we are determined to 
innovate new models for helping younger farmers, especially 
since a lot of our aging farming population is experiencing 
this moment of transition. So we are trying to engage, inspire, 
and motivate the next generation of agriculturalists.
    Chairman CROW. Thank you, Mr. Meza.
    And I do have some questions for the other witnesses but I 
do want to spread it around a little bit before I loop back to 
all of you for a second round.
    So my time has expired, and Mr. Balderson is now recognized 
for 5 minutes.
    Mr. BALDERSON. Thank you, Chairman Crow.
    I will start off with Dr. Jackson-Smith.
    Doctor, according to a recent article in the Minnesota 
Times--excuse me, Minnesota Star Tribune--tractors built in 
1980 or earlier are in high demand because the price to buy and 
maintain them is significantly lower than new high-tech 
tractors. Can you give us a brief interpretation of this trend?
    Mr. JACKSON-SMITH. Certainly. And I can say I just retired 
my 1985 Toyota Corolla, which rusted out before the engine ever 
went, so I bond with those farmers. I farmed for 25 years, and 
when I farmed I understood the value of this kind of tier of 
technology.
    My explanation for that ties into the fact that farmers at 
this small and mid-size tier have limited resources and a lot 
of cutting edge technology, especially when it first rolls out 
is beyond their reach or designed for scales that initially 
might exceed their capacity to take advantage of it, whereas 
technology from the `70s and `80s, certainly tractor 
technology, can do the job without having to be very expensive 
and difficult to acquire and maintain.
    Farmers also farm for more than economic reasons. The 
quality of the labor experience, their ability to achieve 
independence is critical to farmers that I work with. And being 
able to work on your own tractor was why I kept that Toyota 
Corolla. I could fix a car that had a carburetor. I cannot fix 
my Toyota Prius. In fact, I am scared to touch the Toyota Prius 
engine.
    So it is a very interesting observation but it does 
reflect, I think, both the lack of development of appropriate 
technology perhaps in the mainstream machinery industry 
historically and therefore, old tractors having a niche, but 
also an opportunity for manufacturers to get into that space 
and find ways to produce technology that is really targeted and 
suited to that kind of clientele. And there are manufacturers I 
think who are wising up to that.
    Mr. BALDERSON. Yes, I agree. Thank you very much.
    This next question I have is for the whole panel and you 
all can jump in however you may.
    According to the Innovate Ohio statewide broadband 
strategy, 300,000 households in Ohio, representing 
approximately 1 million Ohioans lack broadband Internet access. 
As a member of the Small Business and Transportation 
Infrastructure Committees, I advocate for rural communities, 
including those in my district that suffer from crumbling 
infrastructure and inadequate Internet access. How does 
broadband access impact technology adoption for rural farmers?
    Mr. POTERE. Ranking Member Balderson, I can make a comment 
from the prospective of Indigo Ag. We have had to build mobile 
technologies for farmers to validate the work they are doing on 
farm in order for buyers to pay a premium. We are trying to 
decommoditize grain agriculture. And that means we have to send 
agronomists and farmers themselves into the field to take notes 
on what is happening. The lack of broadband access has required 
us as a technology company to build all of our apps resilient 
to a lack of Internet connectivity. The development costs of 
that and the missed opportunity around a two-way street of data 
flows for the farmer are just really mindboggling.
    It is really interesting from a software developer 
perspective, we bring developers from all over the world to 
Indigo. They were shocked to deal with that engineering 
challenge because they are so trained on solving urban 
problems, it was a real moment to realize that the lack of 
bandwidth was going to mean developing against total blackout 
from a bandwidth perspective.
    Mr. BALDERSON. Thank you. That is a good answer.
    Sir?
    Mr. FRANCE. If I may, I would like to second that. Our 
entire network has been developed based upon a cellular and 
satellite uplink because of the fact that in many of the 
regions we are in, there is not sustainable broadband. So we do 
use broadband where we can because there is a cost benefit to 
doing so. But it is a secondary backup. I mean, some of these 
areas, they are in the middle of the desert. You know, we are 
in areas where it gets to 130 degrees as a high, and then, of 
course, in areas of Colorado it is below zero. So that shift in 
climate over the year puts you in a position where not only do 
you have to have solid equipment that can sustain itself but 
also the connectivity to get to the web is still not there.
    Mr. BALDERSON. Okay.
    Mr. Meza?
    Mr. MEZA. We have been lucky in our context in rural 
Bennett that we have incredible fiber-optic connections. It is 
an essential part of our business model because we are able to 
create a niche for ourselves and a market for ourselves through 
the use of communication of platforms by educating consumers 
about our product and connecting them with their food source. 
That is pretty much how we have been able to create this 
business for ourselves. And we also need this technology to 
utilize the sensor technology that we are using to mitigate any 
energy waste that we may encounter in our production methods.
    Mr. BALDERSON. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman CROW. Thank you, Mr. Balderson. The gentleman 
yields back.
    The gentlelady from Kansas is now recognized for 5 minutes.
    Ms. DAVIDS. Thank you, Chairman. And thank you for holding 
this hearing. Thank you to all the folks who came out here to 
testify on what I think is a really amazing opportunity for us 
on the Small Business Committee to be talking about issues that 
really touch on rural, urban, and suburban points of contact 
here.
    I represent the 3rd District in Kanas, which is home to 
Garmin. So we have got a lot of the precision agriculture 
technology. You know, it is very important to the district I 
represent, but also, in my state there is really, I would 
consider there to be a big push toward the sustainable 
agriculture that you all have been talking about today. Johns 
County Community College has a sustainable agriculture program 
that I had the opportunity to go and visit. And one of the 
things they brought up is how hard it can be for people to get 
into some of the types of farming that you have been talking 
about, the smaller farms, getting into some of the crops that 
people are less familiar with.
    So I guess the question for anyone on the panel who wants 
to help enlighten us is how can we as the Small Business 
Committee or Congress help support that pipeline? And also, the 
technologies that I think--I am particularly excited about the 
carbon sequestration piece, but I would love to hear from you 
about how we can really impellent or make the programs that we 
have existing better for you all.
    Mr. POTERE. Congresswoman Davids, I appreciate the 
question, and I will maybe address in particular the carbon 
opportunity.
    Something we wrestle with is if this is such a win-win, you 
know, coming to a regenerative system means you can use less 
inputs, farm more profitably, make more healthy food and be 
paid for it, why have we not seen the transition; right? I 
mean, farmers are entrepreneurs. If it was that compelling, why 
are we seeing only 2 and 3 and 4 percent of all American 
farmers doing those things? And we think the barrier in large 
part is risk and know-how. So it is risky to change the model. 
And the model of conventional farming is well understood. And 
so anything that stretches conventional farming introduces 
risk. And so I would suggest that anything that Congress can do 
to create incentives around overcoming that first barrier is a 
game changer; once folks have been doing this for 2 and 3 
years, it is actually a more profitable farm. But it is 
overcoming that initiation obstacle that seems to be a big part 
of the blocker.
    Mr. FRANCE. If I may add to that. So SWIIM, we are in three 
states, and we have a staff of 30-something. So we are a small 
business as well. We have applied for state and Federal 
funding. Been successful in some cases. Failed in others. We 
find ourselves helping our growers may be 30 percent of the 
time use some funding mechanism to help integrate this type of 
technology, whether it is SWIIM-based technology or otherwise, 
some level of technology.
    The other thing that we find as a barrier is the fact that 
these growers tell us over and over that they just want to 
grow. They are not in a position where they want to fill out 
paperwork. They are not in a position where they want to wait 
for funding. Many of the programs, at least the ones that we 
are involved in that are available create a disincentive to 
pre-deploy these types of technologies. Again, whether it is 
SWIIM or any other technology where one could apply for 
funding, the grower wants to get in on it now. If they do pre-
fund, the available funding packages will not allow them to be 
reimbursed. So they cannot. And I am speaking specifically to 
EQIP. I am sure there are others. We have had growers just say 
flat out, I am tired of waiting. I want to get this water 
conservation technology in place. To heck with it, I am just 
going to deploy it myself. Over and over. We have actually 
helped our clients apply multiple times. And almost every 
single one of them have just moved forward and done it 
themselves. So a revamp of the process, maybe thinking outside 
of the box. You know, we have had growers say if we could just 
do one master application for all of our fields in this one 
region we would do it in about 5 seconds. But one form for 
every single field? It is the same reason they do not want to 
monitor their water. They want to leave that to a professional. 
The same reason that we found pushback on these types of 
programs.
    Thank you.
    Ms. DAVIDS. Thank you. And my time is coming to an end 
here. I appreciate the tangible suggestions that you have. And 
I will reach out to the folks who did not get to answer this 
question to see what you have to say about it.
    Thank you so much, and I yield back.
    Chairman CROW. Thank you. The gentlelady yields back.
    The gentleman from Tennessee, Mr. Burchett is recognized 
for 5 minutes.
    Mr. BURCHETT. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here, and I appreciate you all being here.
    I have been involved in I guess an organic business. I have 
had a little composting, mulching business for a long time and 
I know, I guess, the learning curve I had to experience but 
also with regulations, they just make them up as they go. And 
so I am excited to see you all doing what you are doing.
    I have a couple of questions. This is for the full panel.
    How do American consumers affect ag-tech industry dynamics? 
And are they driving the expansion of this industry or are they 
continuing to learn how it works?
    Mr. MEZA. Thank you, Mr. Burchett.
    Mr. BURCHETT. You can call me Tim. We are good. I would 
appreciate it.
    Mr. MEZA. In Colorado there is a really strong local food 
movement, and consumers are increasingly demanding products 
that are available locally, not only to receive the freshest 
and most high-quality ingredients, but also to limit the food 
miles that food has to travel to get to their plates. So we 
have been able to address that by the kind of crop that we 
grow. And not only that, but I think there is also this greater 
awareness of the participation we all have in establishing a 
sustainable local food system. It is really the ecosystem that 
we all partake in. Farmers, consumers, everybody that is 
involved in food. So it really is a driving force because we 
grow for the consumer. That is our primary goal. And for me it 
is really important to not only think of it in terms of a 
transaction but a reciprocal relationship; right? We see it as 
we take care of the plants so that they can take care of us, 
and then we can take care of the community. And that 
relationship has been the, I would say, intangible 
infrastructure that supports our entire business.
    Mr. BURCHETT. I was glad to hear you say that. I am an 
organic gardener and I grow tomatoes and squash and green 
beans. And we have got blueberries and blackberries and 
raspberries. And it is all sort of conglomerated. And I 
remember when I started in my backyard it was covered in all 
kinds of stuff. And my neighbor, oddly enough, who was not in 
my political party, but told me I needed to spray it down with 
some chemicals. You know? And I hesitated. I was mayor of the 
county but I lived in the city, kind of confusing, but I 
adopted two goats and they were wonderful. Even the neighbors 
ended up liking them, so I always thought I was going to get in 
trouble with the goat police if there were any but they were 
awesome. A lot of fond memories. They were Ray and Lucy. I 
named them after some friends of mine. I appreciate that. It is 
true. You can look it up. You can look it up. Neighborhood kids 
would come by. They would say, ``Mayor, can we get a picture 
made with your goats?'' And I would say, ``Sure. Come on 
back.''
    They are great, man. They were just like a member of the 
family. I remember one time we were eating breakfast, my little 
girl Isabelle, I heard this chomping in the background. And I 
looked over and me and her mama saw that daggone goat had eaten 
the screen. And they do eat anything. I mean, anything. That is 
no lie. Had eaten that screen and she was feeding it Cinnamon 
Life through the kitchen window. But, you know, I love my girl 
so it could have come right in the kitchen for all I care. Mama 
would not have liked that but it was all right with me.
    But anyway, back to my questions. That is good for ratings 
on C-SPAN by the way. They love that stuff.
    What motivates or discourages small family farmers when 
they are considering new technologies? You know, when I was in 
my deal, I mean, I was strict on the environmental issues and 
it seemed like our universities, they did not like the organic 
aspect. And I found out later that a lot of the funding comes 
from some of the big boys who I taunt regularly on my Twitter 
page about, you kwon, my organic berries and stuff. And which I 
am sure it brings them to their knees. But the truth is that 
they get a lot of funding, these universities do from that, and 
so they sort of discourage the environmental thing. I know one 
of you all said you grew microgreens and other things, so I was 
kind of curious how that all played in.
    You all just kind of jump in wherever you want to. Or just 
shake your head in disbelief.
    Mr. JACKSON-SMITH. Since you pointed out universities, let 
me just jump in on this one. And I think the world has changed. 
Compared to 30 years ago, unversities are now very much 
focused, as is agriculture, on this sort of emerging, consumer-
driven market. There was skepticism when I started my career 
about whether organics was the real deal and whether there is 
real science behind organic farming. It is now a $50-60 billion 
industry. And so that has woken up a lot of researchers to the 
possibilities of being in that space and helping to optimize 
those systems in the same way we have optimized conventional 
agricultural systems.
    And I think for farmers, the area of diversification and 
regenerative agriculture is going to be the next frontier. It 
is complex. It is going to require a lot of support and 
targeted work but I think if I were to be self-serving, 
universities are going to play a role in helping solve and 
figure out some of those fundamental science dynamics of those 
systems that entrepreneurs and innovators will be able to 
develop into new technologies that can help farmers adopt.
    Mr. BURCHETT. All right. I see I have run over my time once 
again but I really appreciate you all being here. Thank you in 
all sincerity. I dig entrepreneurs and we have got to encourage 
that. We have got to encourage the university and through all 
these emerging new markets it is very encouraging.
    Sorry, Mr. Chairman, I yield back none of my time.
    Chairman CROW. Thank you, Mr. Burchett. I think everyone is 
disappointed that your time is expired, including me. Always 
one of my favorite----
    Mr. BURCHETT. I know the viewers are.
    Chairman CROW.--some of my favorite 5 minutes of all the 
Committee hearings. So I appreciate it very much. But I am sure 
you will go viral so, you know, we can watch it later.
    The gentleman's time has expired.
    The gentleman from Oklahoma, Mr. Hern, is recognized for 5 
minutes.
    Mr. HERN. Thank you, Mr. Chairman. I have no goat stories, 
but I did grow up on farms.
    I thank the Ranking Member as well, and thank you all for 
being here today.
    As a small business owner for almost 35 years now and job 
creator and all kinds of farming and ranching over the years, 
but I am also an engineer so I really appreciate technology and 
what it does to make our lives better, or confuse us, one or 
the other a lot of times. It has allowed for a lot of increased 
deficiencies and you have related to that in your testimony. 
And it is also, I am very familiar with IOT and what it has 
done for changing America, the legacy equipment we have out 
there.
    You know, because small businesses start as numerous 
innovations and agricultural technologies to help aid American 
farmers, specifically these innovations have helped farmers to 
identify problematic factors impacting their crop productions, 
how to become more efficient, and you know, there has been a 
lot of conversation about more sustainable food production, the 
creation of a stronger resistance to environmental factors 
which is huge, to create more yield. To continue this success 
it is essential that we as elected officials are fostering 
growth for startups and small businesses rather than creating 
more barriers. One of the things, if you know the history of 
this Committee, it is a really bipartisan Committee that really 
works on trying to cut through all the politics of what is out 
there to really get things into the hands, ideas, and remove 
barriers for our entrepreneurs to go out and create a lot of 
jobs.
    Unfortunately, a lot of times when we try, the government 
tries to get in the way, and I know a lot of times when you 
come here you are asking for the government to get involved, 
and we can also be the worst nightmare because everybody has a 
wonderful idea that tends to stifle growth and innovation. And 
one of these examples of the barriers stems from a 2011 study 
you may be familiar with which found that due to regulations, 
bringing a new plant biotech variety to market costs an average 
of $136 million and more than 13 years to complete. In an 
effort to reduce these burdens, both Obama and Trump 
administrations have called for reforming our agricultural 
biotech rules to reduce cost, improve efficiency, and reflect 
decades of safe use. That said, there is more that we can do to 
improve our regulatory environment. This is something I would 
like to ask each of you about.
    So the question is in our 2-1/2 minutes, and we will just 
start right here and just kind of move down if you do not mind, 
do you all have thoughts and recommendations, specific or 
general, on ways we can improve the regulatory climate, remove 
unnecessary market barriers, or allow for better small business 
participation in this critical sector?
    Mr. FRANCE. Sir, I would write a book on that if I could 
figure that out. It would probably be a best seller would be my 
guess.
    But in all seriousness, as far as regulation goes, we have 
spent a lot of time in our particular area looking for ways to 
take already established programs and make them work for our 
clientele. So we are talking EQIP, RCPP funding through a 
third-party source, directly going to BuRec or BIA. I struggle 
with asking the government to come up with another program. I 
would suggest looking at the programs we have and giving more 
leeway to those that already have the ability to kind of look 
outside the box. For example, a lot of the USDA funding that is 
issued on a regional basis, you know, it is issued to regional 
offices if you will and they place it. If, for example, you 
found a project that spanned regions giving one person 
authority to fund all of those under the same terms and 
conditions, maybe flexing within the system that is in place 
would be my advice because I am not sure you would necessarily 
want to go in and try to create a brand new program. That is 
just my view.
    Mr. HERN. Dr. Potere?
    Mr. POTERE. We certainly feel the effects that you are 
describing. It is one of the reasons why we have pursued 
microbial technology, naturally occurring microbes that are in 
nature, amplifying those is one way. One of the reasons that is 
an attractive avenue for yield improvements is because of the 
barriers that you were talking about. So this is an example of 
the private sector reacting to those barriers.
    And I would say also that the system of conventional 
farming is something that needs to change. And that is also not 
a regulatory-constrained avenue. So in our case, I think while 
we do face some of the constraints of regulatory approval for 
those microbes that we are developing, we found two promising 
ways kind of around that. So certainly verifying what you are 
saying around the challenges that it creates.
    Mr. HERN. Thank you, Mr. Chairman. I yield back.
    Chairman CROW. I will extend 2 minutes. I would actually 
like to hear the other two witnesses answer your question.
    Mr. HERN. Thank you.
    Chairman CROW. Yep.
    Mr. HERN. Mr. Meza?
    Mr. MEZA. Yeah, I think, you know, the first thing we need 
to do is go to farming communities and ask them what ideas they 
have. I think too often we as experts think that we have a 
program that is complete and that will remove and allow further 
development. But, you know, contexts are different everywhere. 
And so the only one that can really speak to those contexts are 
the farmers themselves. I think it is really important to take 
into account the specificities of each farmer and what they 
need and how they see the whole matrix of things working.
    Another thing that I think would help is, you know, we all 
know that Big Ag has been subsidized. So we should be able to 
channel some of the funding into regenerative agriculture, new 
innovative models for producing food. And hopefully, we can 
come up with a nice brainstorming session that will yield some 
innovative models.
    Mr. HERN. Thank you.
    Mr. JACKSON-SMITH. It is a fantastic question. You stumbled 
into an area about which I know too much so I will be talking 
for the next 45 minutes, like any good professor.
    No, actually, I have worked for quite a while on ag-
technology. I started out when Bovine somatatropin (or bovine 
growth hormone) was a cutting-edge technology in the dairy 
industry in Wisconsin. And it was and still is a controversial 
and contested technology. And it was the opening salvo in an 
ongoing saga of genetic engineering being a political football 
or at least a very contested issue. And I think our regulatory 
system reflects that. I do not know anyone who thinks our 
current regulatory system on genetic engineering makes any 
sense. It is kind of like no one really likes our immigration 
system. But to find our way forward with genetic engineering 
regulation requires finding some middle ground, finding some 
balance, and coming up with a system that incentivizes careful 
scrutiny in places where it is necessary and recognizes that 
many of the barriers that have been put in place right now are 
preventing us from deploying technology for purposes that I 
think all of us would celebrate.
    There are plenty of examples. We talk some about it in our 
longer written testimony, for example, innovations in cover 
crops that allow cover crops to succeed. They are a great idea 
but I know most farmers try them and find that it is more 
complicated than they were told. And that is because we have 
not had the ability to engineer and develop and breed cover 
crops that suite the diversity of climates and production 
systems farmers use. Biotechnology and genetic engineering 
could be a tool if we were able to confidently deploy that as 
part of our portfolio.
    But I recognize, and I am sympathetic that the ways in 
which it has been deployed to date have not always percolated 
down into benefits for consumers or small businesses. And so 
the skepticism and concerns about biotechnology are real. But I 
think you are touching on an area where there is a bottleneck 
and a bottleneck that somehow we are going to have to see our 
way through in the future.
    Mr. HERN. Thank you.
    Mr. Chairman, thank you.
    Chairman CROW. Thank you, Mr. Hern. The gentleman yields 
back.
    The gentleman from Pennsylvania, Dr. Joyce, is recognized 
for 5 minutes.
    Mr. JOYCE. I thank the Chairman for yielding and for the 
opportunity to discuss the opportunities that ag technology can 
bring to rural America.
    First, I would like to take a moment to highlight a farm in 
my congressional district which has been incredibly successful 
in utilizing technology to improve their operations. Jan and 
Dan Turner own and operate Ewe Lamb Right Farm, an 80-acre farm 
in Shippensburg, Pennsylvania, where they primarily raise hair 
sheep and lambs. Several years ago, Dan and Jan entirely relied 
on a system of spreadsheets and post-it notes to record the 
growth and any medication, vaccination, trimmings, other 
details relevant to managing their flock. The process to 
collect this data was tedious and it required them to access 
the sheep one by one, flip through pages of spreadsheets to 
find the corresponding records, and then input the updated 
relevant information into the spreadsheets.
    To improve this process, the very innovative Turners joined 
the National Sheep Improvement Program and purchased a system 
which consisted of ear tags with an RFID chip and a handheld 
chip reader, as well as a Bluetooth enabled scale that works 
with the chip reader. This technology has allowed them to 
collect more data and do it in a fraction of the time. They 
have seen a remarkable 4-to-1 time reduction in the barn and a 
stunning 12-to-1 reduction in labor on data entry. More 
importantly, the Turners not only save time but the additional 
data enables them to improve quality of care to the flock and 
decreases the stress on the animals and the shepherds. In the 
words of the Turners, and I quote, ``It is like having a 
farmhand who has X-ray vision and almost perfect memory.'' We 
can all agree that technology of this magnitude can be 
revolutionary for small and medium operations.
    However, as noted by your testimony here today, major 
hurdles continue to develop and impede the deploying of those 
technologies. And this technology relies in a large part to 
broadband access. One of my top priorities since coming to 
Congress has been to increase and expand rural broadband 
deployment.
    Dr. Jackson-Smith, you certainly have a broad expertise in 
this. Can you further elaborate on how a lack of reliable 
broadband limits opportunities available to small and medium 
farms that are looking to diversify, to modernize, and to 
improve their operations?
    Mr. JACKSON-SMITH. I can. And I can speak about the goats 
that I used to raise. Not really. But the fact is that I used 
to live on a farm where we did raise goats and sheep, and we 
had dial-up Internet. And it sensitized me to the realities of 
what life in rural American is like for farming and being able 
to access cutting-edge technology.
    For most developers of technology these days, they have 
very little exposure to agriculture, very little personal 
experience with the realities of what the working environment 
is like, the complexities of juggling all the demands of that 
task. Many come from urban areas. And so some of the comments 
made earlier about how surprised people are who have been 
working in tech development for 20 years, when they take on a 
rural project or an ag project, the realities of what Internet 
access is like. It is a huge issue. It is a tremendous barrier 
to being able to deploy things.
    One of the strategies I think that we should explore more 
is to be able to get more entrepreneurs and innovators, and 
this speaks to workforce development, out on farms, out in 
rural communities before technology is hardened and developed 
to get an appreciation for what the clientele are like and 
where they have needs and where there are opportunities. I 
think it is a vastly under resourced place for us to spend 
resources and effort that would lead to things we could not 
imagine. We need a designed system. I raise sheep. A designed 
system for a small scale sheep producer that fits with my 
budget, makes my life easier, and allows me to be more 
successful is exactly where we ought to be at.
    Mr. JOYCE. Thank you, sir.
    Thank you, Mr. Chair, and I yield back.
    Chairman CROW. Thank you, Dr. Joyce. The gentleman yields 
back.
    The gentleman from Texas, Mr. Veasey is recognized for 5 
minutes.
    Mr. VEASEY. Thank you very much.
    I wanted to ask some questions for Mr. Jackson-Smith. I 
know that information that can help farmers make these 
decisions surrounding input and best management practices are 
very critical, obviously, to be able to maximize yields. As the 
digital technology and tools become more available, how do you 
think this is going to change farmers' behaviors as it relates 
to conservation?
    Mr. JACKSON-SMITH. I think conservation is where we are 
going to see some of the major opportunities in terms of 
technology-driven, data-driven, information-driven decision-
making. It requires the emergence of markets and incentives for 
conservation that allow farmers to get returns for those kinds 
of investments which often benefit society a lot more than they 
will benefit the individual operator. I think my comment 
earlier speaks to the fact that if not appropriately tailored 
to the needs of rural and small and medium-size operations, a 
lot of technology might not give us the benefits that we would 
like to think they can achieve. And so I think that is where 
there is a role for all innovation is going to come from the 
private sector. There is a critical role for small, and all 
businesses to innovate. But for the Federal Government or 
governments in general to build the infrastructure that creates 
the template in the 21st century for success, and rural 
broadband Internet is one of those key infrastructure 
investments that will never make sense to a Verizon Wireless 
company because there are not enough customers per mile but 
make tremendous sense in terms of us being prepared to be a key 
player and small and rural communities being a key player in 
the future.
    But also, trying to train and develop a workforce that is 
capable of being sensitive to the needs of agriculture. I spoke 
in my oral comments about getting farmers more involved in 
research. And I went by it quickly, but I have come to the 
opinion that conservation innovation is going to go a whole lot 
faster if farmers are there at the very beginning of the 
process to help design solutions than if we work from the 
outside and innovate and then try to sell things to farmers. 
And so I think supporting programs that embed farmers with 
universities, I do that every day in my work, but also embed 
entrepreneurs in businesses to a greater extent in farming and 
rural communities will be some of the hidden ways we can really 
accelerate innovation in that space.
    Mr. JOYCE. Do you think that innovation of the space is 
embraced by people in agriculture, or is it something that has 
to be sort of gradually, you know, sold to them? Or is it 
something that people are very open to? Or is it more of a hard 
sale?
    Mr. JACKSON-SMITH. So I am a social scientist. I get the 
phone call from my technology-oriented colleagues who say we 
have invented something. Farmers do not use it. You come along, 
wave your magic sociology wand, and tell us how we can better 
get people to do that.
    I have learned to turn that question back and say, well, I 
have always found that things that work are pretty easy to 
convince people to use. If you have designed something that 
really solves a farmer's problems or fits with the kind of 
context they are making decisions, it is a whole lot easier to 
get to that adoption.
    It is simple think that farmers do or do not want to do 
conservation but it is actually a lot more complicated. I have 
rarely met farmers who do not want to do conservation. 
Ubiquitously, people are very sensitive about their 
environmental footprint. They want to be good stewards. They 
want to leave the land in better shape than they found it. That 
is what agriculturalists are like.
    When farmers are not doing conservation, it is usually for 
reasons that make sense. There are costs that exceed anything 
they can afford without returns that compensate for that. Or 
technologies that sound better than they might actually 
operate, like in the cover crop arena. We need to do a lot more 
to make cover crops be something. And when we design solutions 
I think in partnership with farmers, we are going to find that 
the end of convincing people, of telling people and educating 
them is no longer going to be the barrier. It is really 
something that tends to unfold on its own.
    Mr. JOYCE. Thank you.
    I yield back.
    Chairman CROW. Thank you. The gentleman yields back.
    The gentlelady from Iowa, Ms. Finkenauer, is recognized for 
5 minutes.
    Ms. FINKENAUER. Thank you, Mr. Chair. And thank you guys 
all so much for being here today. I know some of you have 
traveled pretty far to be here and it means a lot. And as the 
Chair said, I am a congresswoman from Iowa. I represent Iowa's 
1st Congressional District. It is 20 counties in northeast 
Iowa. We touch Illinois, Wisconsin, up to Minnesota, and 
innovation and agriculture is huge for us. And doing it right 
and making sure that our folks in Iowa and to have access to 
the innovation is one of our top priorities, but also something 
that we struggle with because of our lack of access to 
broadband, which I know you guys have touched on quite a bit 
today. But I think it is just important to keep hammering this 
home why this is so important.
    You see, in my district, it was about 3 months or so ago, I 
had FCC Commissioner Jessica Rosenworcel, or Rosenworcel up to 
Iowa One. We went to a farm in Dyersville, showed her some of 
the new equipment that was out there in regard to precision ag. 
But then also as we were sitting there and, you know, she was 
talking to some of the young farmers in the area as well. One 
of the guys came with his dad who I think he just got out of 
ISU and he is trying to show her on his iPad the operation they 
have. They are pork producers. For their feeding operation. And 
as he is pulling out the iPad to show her, the thing will not 
load. And it was just a perfect example about why we have an 
issue when it comes to folks having access to the innovation 
that is already here. But also what that means in the long run 
as well about what we are going to be missing out on if we do 
not get this right sooner than later when it comes to broadband 
and making sure that our farmers have reliable connectivity and 
fast connectivity.
    And I know, Mr. Potere, I know you spoke about this, you 
know, doing some innovative work on trying to create apps or 
different things that would make it so that if you had low 
connectivity it would still work. And I think that is great. 
But what I would like to know is what are we missing out on 
right now because we do not have the high-speed connectivity 
reliably throughout the country? And what would that actually 
mean for innovation if we had that so you could focus your work 
on apps and other things that could do even more versus on 
trying to bring them down to where they work on low 
connectivity?
    Mr. POTERE. Congressman Finkenauer, I think I am going to 
highlight three examples of the things we are missing out on.
    What we have today is essentially a one-way street where we 
build apps that are resilient so we can log a bunch of data, 
and then once you get to a broadband area, dump it back out 
into Indigo servers. And so that means it is a one-way street. 
And so we are not able to provide agronomic decision support to 
the farmer the way we could so that they are getting drone 
imagery in near-real time of critical moments in that crop's 
lifecycle. So there is a disadvantage around the farmer 
decision-making. They are missing out on intelligence they 
should have.
    There are also consumers who are missing out. Consumer 
preferences are such that, as Dr. Jackson was saying, they are 
changing. And consumers are increasingly ready to pay for 
decommoditized agriculture. At Indigo, we have done deals with 
companies like Anheuser-Busch, sourcing sustainably grown, low 
water, rice, but you have to verify that the farmers are doing 
what they are saying. And if there is no connectivity, if you 
are in a black zone, you cannot do that.
    And I would say the last example is those experiments that 
Dr. Jackson-Smith was talking about involving farmers. Every 
day, there are millions of experiments as farmers decide what 
to plant and when to plant it. If we are not watching, we 
cannot allow them to participate in this experiment. In Indigo, 
we fight that by trying to instrument as many of those fields 
as possible and watching them from space. But that is a half 
measure. You know, the reality of prevalent broadband would be 
that all three of those things I think get a lot better and 
just accelerate us.
    Ms. FINKENAUER. Well, thank you so much. And again, I 
appreciate you all taking the time to be here today. This is 
such an important topic.
    And thank you, Mr. Chair, for holding this hearing.
    And with that I yield back.
    Chairman CROW. Thank you. The gentlelady yields back.
    I would now like to recognize the gentleman from New 
Jersey, Mr. Kim, who is also the Chairman of the Subcommittee 
on Economic Growth, Tax, and Capital Access, a relevant 
Subcommittee for this discussion as well, for 5 minutes.
    Mr. KIM. Thanks, Chairman.
    I just wanted to dive into a few things. You know, this is 
critically important to my district. We have nearly 1,000 farms 
in the New Jersey 3rd Congressional District. You know, making 
farming more efficient and profitable in industries, something 
I care deeply about, the technological advances that you join 
us to speak about certainly sound really promising here. And I 
am trying to think about how best this can be implemented.
    I guess my question is, you know, Dr. Potere, I would like 
to start with you. I guess my initial questions are, what can 
be done to help farmers successfully transition into more 
technologically driven farming practices? And as we know that 
with the advent of technology into different industries that we 
have seen in other sectors, you know, sometimes that transition 
is difficult both in terms of taking on the resources, being 
trained up, things of that nature. So what can we do to 
decrease the burden upon farmers to integrate this type of 
technology into their lives and their work?
    Mr. POTERE. Congressman Kim, I appreciate the question.
    You know, we should realize that we are incenting farmer 
behavior with billions of dollars of tax and other kinds of 
subsidy. And the question is how could we direct some of what 
is already out in play towards more of these sustainable 
beneficial ag practices?
    I mentioned just one example I will spend a moment with you 
on which is this carbon tax concept. For us, the question is we 
have decided a decade ago that it makes sense to incent oil and 
gas companies to sequester carbon dioxide as part of enhanced 
extraction techniques. It costs of $50 a ton to do that. We 
think that for a fraction of that cost, farmers can put the 
same amount of carbon dioxide into the living, agricultural 
soil.
    So the question is, would it not make sense, should we 
really care where those carbon that is being pulled out of the 
atmosphere is going? We have done some math and it is why we 
have created what is called the Terraton Initiative. It is a 
challenge to sequester a trillion tons of carbon dioxide 
equivalent into agricultural soils all over the world. That is 
all of the carbon dioxide that has been emitted net since the 
beginning of the Industrial Revolution. So literally, farming 
has the potential to be a solution to the climate problem.
    We have farmers on all of that land and, you know, Dr. 
Jackson-Smith is right. Cover crops and regenerative 
agriculture, it is not easy. It is going to take technology to 
help those farmers understand a new sort of a digital playbook 
of how to do this well. But the reward, if the government can 
help incentivize that kind of behavior, is really hopeful. It 
is putting the farmer as the hero in the climate challenge. And 
we think it is time to start to put incentives in place to make 
that happen.
    Mr. KIM. I appreciate your answer there.
    Dr. Jackson-Smith, I just have a question for you.
    I really enjoyed in your presentation just kind of the 
breakdown of how to look at this in terms of what technology 
can do on this front. And I would like to just delve in a 
little deeper. In my district, you know, our district got 
crushed by Superstorm Sand. In New Jersey we have a lot of 
temperature flux as we see the challenges that are arising with 
climate change and extreme weather. This is a real problem for 
farming in our district. We know cranberries and blueberries 
are particularly sensitive to that kind of change in 
temperatures, and flooding is something that is just getting 
worse and worse. It is not just about when storms come. It is 
really a daily occurrence in many places.
    So I guess my question to you is, how can technology help 
lessen some of these harmful effects, the impacts of such 
events, as well as increase the resiliency of when we were 
looking at farming?
    Mr. JACKSON-SMITH. So I think one, easy, big picture answer 
lies in the concept of diversifying our production systems. So 
to the extent that we look more towards agroecosystem based 
solutions, we are going to need farmers and farming systems 
that produce a wider range of crops, that have soil building 
practices that give them resilience in the face of extreme 
weather events that we know is possible. And we are going to 
have to develop the technologies in the markets that allow that 
to be a viable and expanding and exciting opportunity. And so I 
think it is that combination of putting the package together to 
take us to that next generation of agriculture that is going to 
show up as a more robust and resilient agricultural community 
in your district. To the extent that we can help those farmers 
make that transition in ways that make sense to them we will 
succeed.
    Mr. KIM. Yeah, well, look, these are all things that we 
will have to work together to do.
    Chairman, I yield back.
    Chairman CROW. The gentleman yields back. Thank you very 
much.
    We want to thank all the witnesses for taking time out of 
their schedules to be with us today on this really important 
topic, and there was really fantastic testimony on the issues 
that we all look forward to working on and trying to find ways 
to help the industry.
    As we have heard today, small businesses are at the 
forefront of the ag-tech revolution as both producers of 
exciting new technology and as farmer and rancher users become 
more efficient and sustainable over time helping that 
transition to occur.
    In the 20th century, the United States public investment in 
agriculture, research, and development was a driving force 
behind innovation and increased efficiency. Yet, U.S. public 
investment in agriculture, research, and development has 
decreased steadily since 2002, being surpassed by China 
actually in 2008.
    So I am going to thank our witnesses for being here today 
to share the challenges and opportunities to help reverse that 
trend and make really smart and wise investments. I think we 
all view our role here and there is great collaboration. And 
this Committee is trying to find ways to reduce barriers and to 
help spur innovation in the private sector, the public sector, 
and at research institutions and universities as well. There is 
tremendous work going on. I think we all recognize that and we 
want to be helpful in reducing the hurdles and barriers so that 
that can continue.
    So I would like to ask unanimous consent that members have 
5 legislative days to submit statements and supporting 
materials for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]
                            
                            
                            A P P E N D I X


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
